Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




     HEALTHY DIFFERENCE --
    LESSONS LEARNED ABOUT
  INFORMATION DISSEMINATION




              AUGUST   1993
                        OFFICE OF INSPECTOR              GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                            OFFICE OF AUDIT           SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION                 AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


This report was prepared in the Public Health and Human Services Branch under the direction

of Emilie Baebel. Project staffi


Mary    Beth Clarke, Project Leader

Brian   Rawdon, Analyst

Mark    Krushat, SC.D., Mothemotical Statistician

Linda   Moscoe, Program Anolyst

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




      HEALTHY DIFFERENCE --
     LESSONS LEARNED ABOUT
   INFORMATION DISSEMINATION




           AUGUST   1993   OEI-12-91-01430

PURPOSE


The purpose of this report is to describe deficiencies in the dissemination strategy of
the Healthy Difference program and in some of the Department’s        data bases of
information on grantees, field offices, and other essential contacts.

BACKGROUND


The Healthy Difference program was part of a Secretarial initiative to improve the

health and well-being of individuals through improved preventive care and promotion

of personal responsibility for one’s health. The Healthy Difference component

consisted of a series of four packages of health promotion materials mailed to selected

Department    of Health and Human Services (HHS) grantees, field offices, and other

selected contacts between April 1991 and March 1992. The program was sent out to

approximately   25,000 participants with a total project cost of $113,000. The

participants consisted of HHS grantees, field offices, and other appropriate    contacts in

the fields of public health, health care facilities, income maintenance,  and human

development    services.


The evaluation of the initiative consisted of a survey mailed to a sample of Healthy

Difference participants to solicit their perceptions of the program.   In order to draw a

representative   sample for the survey, a master data base of all Healthy Difference

participants had to be created. The Office of Inspector General (OIG) requested that

all of the HHS agencies provide this information in a database format. Surveys were

mailed to a sample of 2514 participants in December 1991. We received 720 usable

surveys yielding a total response rate of 29 percent. The information presented in this

report was collected from the surveys received and experiences in conducting the

evaluation.    There was no attempt to validate the self-reported information from the

survey or to measure bias.


The evaluation revealed weaknesses both in the dissemination strategy for the Healthy

Difference program and certain information systems maintained independently     by

agencies within the Department.    The Department’s  Grants Management    Information

Systems were not used in the dissemination of the Healthy Difference materials or this

evaluation.  Therefore, any statements made concerning accuracy or reliability of data

base systems do not refer to the Grants Management    Information Systems.


FINDINGS


1. More lhan half of the respondents were not aware that they had received the Healthy
Difference program materials.

By using selected grantees, field offices, and other contacts, the Healthy Difference
program was intended to reach a large audience.      However, of the surveys returned,
58 percent indicated that they had not received the Healthy Difference materials, and


                                             1

therefore could not use or publicize the health promotion materials to their client
population or other interested groups. This figure cannot be projected to the universe
of all Healthy Difference participants, because of the low response rate of our survey.
However, the low response rate might itself be a further indication of the unreliability
of the addressee information from the data bases.

2. 2%e Healthy Difference program could not be further evaluated.

When requested to provide the OIG with mailing information on the participants of
the Healthy Difference program in a data base format, several agencies where unable
to fully comply. Even in cases where agencies were able to provide this information,
they often could not guarantee that the information was identical to the hard copy
information (mailing labels) provided to Public Health Service (PHS) to mail out the
original program materials.    Without a complete and accurate master data base from
which to draw a sample, the evaluation could not yield meaningful results
generalizable to the universe of all Healthy Difference participants. Furthermore,   as
indicated in the background section, the response rate was only 29 percent, which was
lower than the 50 percent intended in the evaluation design. Finally, as indicated in
the first finding, most respondents were not aware of receiving the materials, a further
indication of unreliability in the information from the data bases.

3. i%e data bases provided by the agencies cannot be reliably Wed to disseminate
Department-wide information, such as was attempted with the Healthy Di#erence
program.

The decision to disseminate the Healthy Difference program to selected grantees, field
offices, and other essential contacts was based on a belief that all of these groups,
including those of social service nature, would benefit from receiving health promotion
messages.   For this to work successfully, agencies have to be able to provide accurate
information regarding the identity of intended respondents    and be able to duplicate it.
As indicated above, this was not possible. We are aware that in participating in the
Healthy Difference program, agencies did not access the Department’s       grants
management      systems managed by the separate operating divisions. However, the data
base systems accessed for the Healthy Difference program clearly are being used by
the agencies to transmit program information to both grantees and a wider audience
of other entities. Until the accuracy of these systems can be verified, they cannot be
used to reliably disseminate information on such a broad scale. The deficiencies noted
in the information obtained from the agency-operated     data base systems are significant
and may impair the ability of agencies to disseminate important information to
grantees and other essential contacts as part of agencies’ missions. Consequently,    the
public may be deprived of needed information and services.




                                             2

The Assktant Secreta~ for Public Aflaim with the Assistant Secretaryfor Management
and Budget should develop guidelines to ensure the accuracy in agency-operated data base
~stems used to dikeminate information.

Up-to-date, complete information in an accessible data base format on all of the
Department’s   grantees, field offices, and other essential contacts is critical to
adequately fulfilling the Department’s    mission. Continued use of agency-operated
data base systems without assurances of accuracy will result in unsuccessful
dissemination  efforts.


COMMENTS

In comments to the draft report, the Office of the Assistant Secretary for Public
Affairs concurred with our recommendation     and welcomes the support of ASMB in
their efforts to develop guidelines to improve the accuracy of public affairs data bases.

In comments to the      draft report, the Assistant Secretary for Management    and Budget
concurred with our     recommendation     and indicated willingness to support the Assistant
Secretary for Public    Affairs in developing guidelines to ensure the accuracy of agency
operated data bases     used for dissemination purposes.

However, ASMB disagreed with our finding concerning the relationship between the
inaccuracy of these data bases and resulting difficulties in evaluating the Healthy
Difference initiative, and whether in fact, the noted difficulties truly reflected accuracy
problems with these data bases. We continue to believe that the problems uncovered
during the evacuation are indicative of underlying systematic problems.       The fact that
over 50 percent of our survey respondents indicated they had never received the
Healthy Difference materials is evidence that these data bases are not completely
accurate and are therefore unreliable for department-wide       dissemination   efforts.

In their comments ASMB notes that the primary difficulty in evaluating the Healthy
Difference initiative was the failure to maintain a copy of the ad hoc mailing list by
the program staff. While this technically is true, it was the individual agencies
participating that failed to maintain copies of the mailing lists. The PHS staff
responsible for coordinating the mailing of the materials received only mailing labels
from the various agencies. It is unreasonable    to expect that PHS would make and
retain copies of all 25,000 mailing labels. One of the assumed benefits of automating
this type information and maintaining a data base system is the efficiency of effort
needed to access the information and the reduced needed for hard copy systems.

The comments    from OASPA       and ASMB are reprinted     in full at the conclusion   of this
report.


                                               3
                                                              Officeofthesecremw


                                                              Washin@on, D.C. 20201
                  ~~!j~R,’.’-


              1993

                 JUL27 FM 3’10

                                        .



     TO:	 Bryan B. Mitchell

            Principal Deputy Inspector General

     FR:	   Campbell Gardet
            Director, News Z&J&?@                      Oyg.        ~~
            Office of the Assistant Secretary for Pu
                                                   # ~+@#@          -

     RE:	 OIG Draft Report: “Healthy Difference -- Lessons Learned

          About Information Disseminationst OEL/z-Y’-~l~~L’



     Thank you for giving OASPA the opportunity to comment on your

     draft report regarding information disseminationunder the

     ‘Healthy-Differencel$campaign.    -

     Because of the change of Administrations and the absence of a

     Director of the Communications Services Division-of OASPA, this

     reply is extremely tardy, for which I take blame and apologize.

     It had been my hope that a new director of the CSD Division would

     be appointed in time to provide a more definitive response.

     As regards the ‘Healthy Differencectcampaign in particular, there

--   is little record in OASPA. It is my understanding that this

     campaign was a joint project with the Office for Disease

     Prevention and Health Promotion in OASH and would not be counted

     among the priority projects of OASPA. Further, I am told by the

     Communications Office of the Office of the Assistant Secretary

     for Health that it was ODPHP mailing lists which were used for

     this campaign. For a more complete understanding of the

     campaign, the Office of Disease Prevention and Health Promotion

     should be consulted.   Indeed, despite the lateness of the hour,

     OASH should have the formal opportunity to comment on the report.

     I suspect they would take issue with some of the findings

     specifically related to the “Healthy Difference” campaign. “‘“


     The more important general question is the need for accurate and

     well-targeted data bases. In particular, the report recommends      ~

     that the Assistant Secretary for Public Affairs work Witi the     _

     Assistant Secretary for Management and Budget to develop

     guidelines to ensure the accuracy of public affairs data bases

     throughout the Department. OASPA agrees entirely with the

     finding of the report-that accuracy of data bases is essential to _

     the effective dissemination of information. For that reason,

     efforts are currently underway to update data bases maintained by

     OASPA .

          )

              .
 -“

      *



                  Page 2


                  In addition, OASPA agrees that we potential for Department-wide

                  guidelines should be examined. OASPA will welcome the support of

                  ASMB in such an examination.


                  It may also be worth noting that OASPA and ASMB are currently          -
                  developing a reorganization of OASPA which puts greater emphasis
                  on outreach efforts, and that a prime task of a new outreach

                  division will be the development and maintenance of effective

                  mailing lists.


                  cc:	   Avis LaVelle
                         Melissa Skolfield
                         Teresa Venegas
                         Gail Becker

                         Elizabeth James, ASMB

                         Bill Grigg, OASH

                                             —





_.—




                                                                             .


                                                                                 >
                                                                                         ,

                                                                                     .
**”’   ‘“


   4
:             DEPARTMENT   OF HEALTH&   HUMAN   SERVICES         Office

                                                                     ofthes=lmw

5

:~
 c
%

 %%<e,w
                                                         WashiI@m,   D.C. 20201



                                          ApR-fi=

                                                                                 -        %
                                                                                 w        ~

            MEMORANDUM TO: Bryan B. Mitchell

                           Principal Deputy Inspector Genera

            FROM           : Elizabeth M. James

                             Acting Assistant S

                               Management and Budge

            SUBJECT        : OIG Draft Report: ‘Healthy Difference ‘-

                             Learned about Information Dissemination,” 0EI-12-

                             91-01430


            Thank you for the opportunity to comment on the subject draft

            report. We concur with its recommendation and will support the

            Assistant Secretary for Public Affairs in developing additional

            guidelines to further ensure the accuracy of agency operated

            ‘mailing listw databases.


            However, we cannot agree with the finding that use of the present

            system ‘will result in unsuccessful dissemination efforts”.

            Rather, our reading of the report found no information presented

            to indicate problems with the information systems maintained

            independently by agencies within the Department.


            The report did find that this specific initiative failed to

            retain a copy of its ad hoc mailing list, and it was this failure

            that led directly to the ensuing inability to properly evaluate

            the effectiveness of the dissemination initiative.


            One other point on the report that needs to be addressed deals

            with the process used in its preparation. The draft report

            states that a mailing of surveys “to a sample of 2514

            participants (occurred) in December 1991$8. Our check with the OS

            Reports Clearance Officer found that the survey was an

            information collection under the Paperwork Reduction Act and that
            the required approval of the Office of Management and Budget was
            not obtained.


            If we may be of any further assistance in this matter or if your

            staff have any questions on our comments, they should be diretited

            to A Prentice Barnes, Sr. on (202) 690-5521.

